     Audit of Certain USAID/Haiti
Fiscal Year 1999 Financial Operations



        Audit Report No. 1-521-00-002-F
                March 2, 2000




       Regional Inspector General
             San Salvador
                U.S. A GENCY FOR
                INTERNATIONAL
                 DEVELOPMENT

                RIG/San Salvador


                March 2, 2000

                MEMORANDUM
                FOR:               USAID/Haiti Director, Phyllis Dichter-Forbes

                FROM:              RIG/A/San Salvador, Timothy E. Cox

                SUBJECT:           Audit of Certain USAID/Haiti Fiscal Year 1999 Financial
                                   Operations (Report No. 1-521-00-002-F)


                This memorandum is our report on the subject audit.

                This report contains two recommendations for your action. Final action has been
                taken on Recommendation Nos. 1, 2.1, and 2.3 and therefore these
                recommendations are closed upon issuance of this report. A management decision
                has been made for Recommendation No. 2.2 and a determination of final action for
                this recommendation will be made by the Office of Management Planning and
                Innovation (M/MPI/MIC) when planned corrective actions are completed.

                I appreciate the cooperation and courtesy extended to my staff during the audit.


Background      This report focuses on USAID/Haiti’s procedures for processing advances and
                disbursements and its procedures for reporting on the status of its budget
                allowances to USAID/Washington. According to USAID/Haiti records, during
                fiscal year 1999, USAID/Haiti made 62 advances over $1,500, with a total amount
                of $5.2 million. USAID/Haiti records indicate that, during the same year,
                USAID/Haiti made 6,201 disbursements with a total amount of $74.2 million.

                USAID/Haiti’s Controller’s Office, which is the focal point in USAID/Haiti for
                financial operations, has 21 staff including a Controller, Deputy Controller, six
                financial analysts, six voucher examiners, one payment coordinator, four accountants,
                and two secretaries.




 Page 1 of 12                                                            Audit Report No. 1-521-00-002-F
Audit Objective   As part of its fiscal year 2000 audit plan, the Office of the Regional Inspector General
                  for Audit/San Salvador performed an audit to answer the following audit objective:

                  •   Were USAID/Haiti’s advances, disbursements, and year-end balances properly
                      processed and reported?

                  Appendix I describes the audit scope and methodology.



Audit Findings    Were USAID/Haiti’s advances, disbursements, and year-end balances
                  properly processed and reported?

                  USAID/Haiti’s advances, disbursements, and year-end balances were properly
                  processed and reported, except that advances exceeded the recipients’ immediate
                  disbursing needs and certain payments were not in full compliance with the
                  underlying contracts or agreements.

                  With respect to advances, based on an examination of sample transactions as
                  described in Appendix I:

                  •   Advance requests were approved by project officers.

                  •   Advance requests were reviewed and approved by Controller’s Office personnel
                      consistent with USAID policies and procedures.

                  •   Advances were correctly certified by Controller’s Office staff.

                  •   Amounts advanced were in agreement with the supporting documentation.

                  With respect to disbursements, based on a review of sample transactions as described
                  in Appendix I, USAID/Haiti:

                  •   Correctly annotated vouchers with the date they were received by
                      USAID/Haiti.

                  •   Made payments on time.

                  •   Made sure that invoices were arithmetically correct.

                  •   Ensured that payments were made to correct payees.

                  •   Recorded payment information correctly in its accounting system and payment
                      tracking system.


 Page 2 of 12                                                               Audit Report No. 1-521-00-002-F
               Also, based on a review of amounts reported by USAID/Haiti for one
               appropriation, year-end balances were properly reported and disbursements were
               reconciled with disbursing office accounts.

               However, as discussed in the following sections, USAID/Haiti made advances that
               exceeded the recipients’ immediate disbursing needs and some payments were not in
               full compliance with the underlying contract or agreement.

               Advances Exceeded 30 Days’ Cash Needs

               USAID’s Automated Directive System (ADS) Section 583.5.3a limits USAID cash
               advances to immediate disbursing needs, which are defined as 30 days’ cash needs
               (i.e., the amount that the recipient would need to cover its disbursing needs for a
               30 day period).

               However, 17 of the 20 advances we reviewed were for amounts in excess of 30
               day’s cash needs. Of the total advanced amount of $3.7 million, $2.5 million was
               in excess of 30 days’ cash needs. For example:

               •   One advance provided $126,484 in funding covering a period of four months to
                   the Centre de Formation et d’Encadrement Technique. Although the contract
                   provided only for monthly advances, the Mission advanced funds covering the
                   entire four-month first session of a training program.

               •   Another advance was a $1.6 million advance to the World Bank under the
                   Modernization of Public Enterprises Program in Haiti. This advance covered
                   estimated expenses for the period May to September 1999, a period of five
                   months. We also noted that as of November 30, 1999 (i.e., after seven
                   months), over $600,000 of this advance remained unliquidated. USAID/Haiti
                   officials noted that this advance was for a high profile program and that the
                   Deputy Chief of Mission at the U.S. embassy in Haiti asked them to make this
                   advance in furtherance of U.S. Government interests. This advance accounted
                   for most of the excess interest cost mentioned in the next paragraph.

               Advances exceeded 30 days’ cash needs because USAID/Haiti’s policy for
               advances was not in accordance with USAID policy contained in the ADS.
               Because the amount of the advances exceeded the amounts permitted by USAID
               policy, we estimate that the U.S. Government incurred $31,090 in unnecessary
               interest expense. 1

               1
                Unnecessary interest expense results when the U.S. Government borrows funds to make advances.
               Our estimate is calculated as follows. For each advance, we reviewed USAID/Haiti documents to
               see what period of time the advance was intended to cover. Any periods in excess of one month
               were considered excess, and the total amount of the advance was pro-rated to determine the excess
               amount. We used the 5 percent interest rate for Treasury borrowings that was in effect during fiscal
               year 1999. The calculation for each advance was: excess advance amount x months in excess of
               one month x (0.05/12).


Page 3 of 12                                                                    Audit Report No. 1-521-00-002-F
                        Recommendation No. 1: We recommend that USAID/Haiti
                        implement an advance policy that is in accordance with USAID’s
                        advance policy limiting advances to 30 days’ cash needs.

               Some Payments Did Not Comply
               With Contract or Agreement Provisions

               USAID contracts, grants, and cooperative agreements are all contractual
               documents that impose requirements on USAID’s contractors and grantees.
               USAID policies require that vouchers be subjected to a detailed examination
               before they are paid. Among other things, the examination must determine
               whether certifications required by the obligating document are made and signed,
               that the amounts and items claimed are in agreement with the basic documents
               authorizing the claim, and that the goods or services were actually delivered or
               performed as directed. 2 In some cases, USAID/Haiti payments were not subjected
               to a sufficiently detailed examination.

               For 9 of the 40 payments reviewed, the payment request was not in full compliance
               with the underlying contract or agreement. Of these nine cases, two payments
               were not in compliance for substantive reasons: the payments should not have been
               made at all. The remaining seven payments were not in compliance because the
               payment requests were not in the correct form: that is, required documents or
               certifications were not provided with the payment requests. Details are provided
               below (note that one payment is discussed twice because there were two reasons
               why it was not in compliance):

               •    For one payment of $4,779 under a time and materials contract where the
                    contractor was entitled to be paid a fixed rate for days actually worked, the
                    contractor did not tell USAID/Haiti how many days were worked and,
                    therefore, should not have been paid at all. (Similar problems were found for
                    $39,321 in other payments that were not part of our sample.)

               •    USAID/Haiti processed a $8,930 payment to a contractor based on a voucher
                    prepared and signed by the USAID activity manager rather than by the
                    contractor. There was no documentation in USAID/Haiti’s files indicating that
                    the contractor ever billed USAID and, therefore, the contractor should not have
                    been paid until a bill was received. (Similar problems were found for $80,135
                    in other payments that were not part of our sample.)

               •    Three payments totaling $196,751 included non-expendable property valued at
                    $17,688 for which the contractor was required to submit vendor’s invoices in
                    order to be reimbursed for the cost of the property. However, vendor’s
                    invoices were not submitted. Therefore, the cost of the non-expendable

               2
                   USAID Financial Management Bulletin No. 8, pages 10 and 19.


Page 4 of 12                                                                 Audit Report No. 1-521-00-002-F
                        property, plus associated indirect costs, for a total of $18,541, should have
                        been disallowed from the payments to the contractors.

                    •   Five payments totaling $97,015 lacked required contractor certifications.
                        These certifications dealt with such matters as certifying that all costs
                        submitted for payment by the contractor had been paid or will be paid when
                        due during the normal course of business and that all required contracting
                        officer approvals had been obtained by the contractor. These required
                        certifications help protect USAID’s interests when payment disputes arise.

                    For the first two cases discussed above, it was difficult to determine exactly why
                    the problems occurred because the responsible activity manager had left the
                    mission. However, it appeared from the written record that the activity manager
                    was not familiar with the contract provisions and, therefore, did not insist that the
                    contractors follow them. Controller’s Office staff stated that they asked for
                    additional support for the payments but ultimately agreed to process the payments
                    since the activity manager had approved them.

                    For the other cases described above, the payments were processed because
                    responsible staff in the Controller’s Office were not familiar with the relevant
                    contract provisions. They needed additional training in contract and grant
                    requirements. It would also be useful to make all of the Federal Acquisition
                    Regulation and USAID Acquisition Regulation provisions more easily available to
                    the voucher examiners in the Controller’s Office.

                           Recommendation No. 2: We recommend that USAID/Haiti:

                           2.1     reach a management decision on the $44,100 (unsupported
                                   costs) paid under Contract Nos. 521-0256-O-00-8107 and
                                   521-0256-O-00-8108 without any indication of the number
                                   of days worked by the contractors and recover from the
                                   contractors the amounts determined to be unallowable,

                           2.2     provide training on contract and grant requirements to staff
                                   responsible for reviewing and approving payment vouchers,
                                   and

                           2.3     make Federal Acquisition Regulation and USAID
                                   Acquisition Regulation provisions more easily available to
                                   staff in the Controller’s Office.



Management     USAID/Haiti agreed with the report findings and recommendations. In response to
Comments and Recommendation No. 1, USAID/Haiti sent letters to grantees who had advances in
Our Evaluation excess of 30 days’ needs informing them that their advances were being adjusted
                    to 30 days’ needs. In response to Recommendation 2.1, USAID/Haiti requested


Page 5 of 12                                                                Audit Report No. 1-521-00-002-F
               additional supporting documentation from the contractors and subsequently
               determined that the entire $44,100 in unsupported costs was allowable. In
               response to Recommendation No. 2.2, USAID/Haiti developed a training plan for
               staff responsible for reviewing and approving payment vouchers. Finally, in
               response to Recommendation No. 2.3, USAID/Haiti provided internet access to
               staff in the Controller’s Office so that the staff can consult the latest revisions of
               the Federal Acquisition Regulations and the USAID Acquisition Regulations.

               Based on the information above, final action has been taken on Recommendation
               Nos. 1, 2.1, and 2.3 and therefore these recommendations are closed upon issuance of
               this report. A management decision has been made for Recommendation No. 2.2 and
               a determination of final action for this recommendation will be made by the Office of
               Management Planning and Innovation (M/MPI/MIC) when planned corrective
               actions are completed.




Page 6 of 12                                                           Audit Report No. 1-521-00-002-F
                                                                                            Appendix I



 Scope and     Scope
 Methodology
               The Office of the Regional Inspector General/San Salvador conducted an audit of certain
               USAID/Haiti fiscal year 1999 financial operations. The audit was performed in
               accordance with generally accepted government auditing standards at USAID/Haiti’s
               offices from November 29, 1999 through December 10, 1999.

               As part of the audit, we obtained an understanding of the controls over the advance
               process, payment process, and reconciliation process. We determined whether the
               controls were placed in operation, and we assessed control risk. We also assessed
               compliance with the Prompt Payment Act and Office of Management and Budget
               Circular No. 125. We did not assess compliance with any other laws and regulations
               applicable to the audit objective.

               The audit examined USAID/Haiti’s fiscal year 1999 financial operations related to cash
               advances, disbursements, and reporting on the status of its budget allowances. It did not
               cover any other USAID/Haiti financial operations.

               Methodology

               The audit objective was to determine if USAID/Haiti’s advances, disbursements, and
               year-end balances were properly processed and reported.

               In examining advances, we reviewed a stratified random sample of 20 advances made
               by USAID/Haiti during fiscal year 1999. The population of all advances over $1,500
               made during fiscal year 1999 and the sample of 20 advances we reviewed are
               compared in the following table:

                        Population                                 Number         Amount
                                                                                 (millions)
                        Advances of $150,000 or more                         9           $2.9
                        Advances from $1,500 to $150,000                    53           $2.3
                        Total                                               62           $5.2

                        Sample                                     Number         Amount
                                                                                 (millions)
                        Advances of $150,000 or more                         9           $2.9
                        Advances from $1,500 to $150,000                    11            $.6
                        Total                                               20           $3.5

               For each sample item, we reviewed documentation and interviewed USAID/Haiti
               personnel to verify that: (1) the request for advance was approved by the project
               officer, (2) the Controller’s Office certified the advance for payment, (3) the voucher
               was reviewed and approved by the Controller’s Office personnel consistent with
               USAID/Haiti and USAID policies and procedures, (4) the advance was requested by



Page 7 of 12                                                           Audit Report No. 1-521-00-002-F
                                                                                           Appendix I

               the recipient, (5) the amount advanced agreed with the supporting documentation, and
               (6) the period covered by the advance was in accordance with USAID policies.

               In examining disbursements, we used queries developed by USAID/Haiti’s Chief
               Accountant to obtain from the Mission Accounting and Control System a list of all
               disbursements by USAID/Haiti during fiscal year 1999. We did not perform any
               specific audit procedures to verify that this list was complete but during the audit we
               were alert to any possible indications that the list might not be complete. We divided
               the list into two groups of disbursements:

               §   Program-type disbursements that represent costs of USAID assistance programs
                   and typically represent relatively high value, non-routine expenses.

               §   Administrative-type disbursements that represent relatively low value, routine
                   expenses. Many, although not all, of these disbursements are for Mission
                   operating expenses.

               We made this distinction by including all operating expense disbursements, as well as
               payments under travel authorizations, personal services contracts, participating agency
               service agreements, payment requests, and certain advices of charge in the latter
               group.

               We then drew two samples of disbursements for detailed review. Since program-type
               disbursements present a higher degree of inherent risk, because of their relatively high
               value and non-routine nature, we drew a random sample of 30 program-type
               disbursements. Because administrative-type disbursements present a lower degree of
               inherent risk, we drew a judgment sample of 10 administrative-type disbursements for
               detailed review. The populations and samples reviewed are compared below:

                        Population                                Number         Amount
                                                                                (millions)
                        Program-type disbursements                       652           $60.2
                        Administrative-type disbursements              5,549           $14.0
                        Total                                          6,201           $74.2

                        Sample                                    Number         Amount
                                                                                (millions)
                        Program-type disbursements                         30           $5.8
                        Administrative-type disbursements                  10           $0.1
                        Total                                              40           $5.9

               For the disbursements in the sample of program-type disbursements, we performed the
               following steps:

               •   Verified that the date the voucher was received was annotated on the face of the
                   voucher.




Page 8 of 12                                                          Audit Report No. 1-521-00-002-F
                                                                                              Appendix I

               •   Traced each voucher through the payment process from the time it was received
                   until it was paid, noting the dates it was received, certified for payment, and
                   actually paid.

               •   Verified the arithmetical accuracy of each voucher.

               •   Compared the payment request with the terms and provisions of the underlying
                   contract or agreement to verify that the payment request was in compliance with
                   the contract or agreement.

               •   Compared the payee shown in the payment request to the payee shown in the
                   contract or agreement.

               •   Verified that each payment was made within the time permitted for payment
                   (generally 30 days unless the contract or agreement provides for a different
                   payment period) and that interest was added to any late payments.

               •   Compared the information recorded in the Mission Accounting and Control
                   System and payment tracking system for each payment to source documents to
                   verify that the information was accurate.

               For the disbursements in the sample of administrative-type disbursements, we
               compared the disbursement with the underlying contract, grant, or other authorizing
               document to verify that the payment was in compliance with the authorizing
               document.

               In reviewing the year-end balances reported by USAID/Haiti, we         traced the amounts
               reported by USAID/Haiti in its U101 report (Summary of                 Allowance Ledger
               Transactions and Reconciliation with the Disbursing Officer’s           Account) for one
               appropriation to the supporting documentation and verified the         correctness of the
               amounts reported. This appropriation was selected judgmentally.

               We also reviewed the reconciliation of the disbursements reported in the Mission
               Accounting and Control System with the disbursements reported by the State
               Department and Treasury Department disbursing offices as of August 31, 1999, and
               we calculated the number and absolute value of the unreconciled transactions as of
               September 30, 1999.

               In performing the audit tests described above, we considered non-compliance
               exceeding 5 percent of the cases reviewed (by number) to represent material non-
               compliance.




Page 9 of 12                                                             Audit Report No. 1-521-00-002-F
                                Appendix II



MANAGEMENT
COMMENTS




Page 10 of 12   Audit Report No. 1-521-00-002-F
                                Appendix II




Page 11 of 12   Audit Report No. 1-521-00-002-F
                                Appendix II




Page 12 of 12   Audit Report No. 1-521-00-002-F
